          U.S. Department of Energy
          Office of Inspector General
          Office of Inspections and Special Inquiries




Inspection Report

Security Access Controls at the Y-12
National Security Complex




DOE/IG-0691                                     June 2005
that the Office of Independent Oversight and Performance Assurance (OA) augment its security
review processes to address these issues.

MANAGEMENT REACTION

Management concurred in our findings and recommendations and committed to taking necessary
corrective actions. NNSA, for example, stated that it would make all of its site office managers
aware of the findings at Y-12 to ensure that steps are taken, if necessary, to improve facility access
controls. The Office of Security and Safety Performance Assurance, OA’s parent organization,
informed us that access controls have been a recognized weakness across the Government and that
much work is being done to prevent reoccurrences of the types of issues identified in this report.

Attachment

cc: Deputy Secretary
    Chief of Staff
    Administrator, National Nuclear Security Administration
    Director, Office of Security and Safety Performance Assurance
    Director, Office of Independent Oversight and Performance Assurance
    Manager, Y-12 Site Office
    Director, Office of Program Liaison and Financial Analysis (ME-100)
    Director, Policy and Internal Controls Management (NA-66)
SECURITY ACCESS CONTROLS AT THE Y-12 NATIONAL
SECURITY COMPLEX




TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objective            1

              Observations and Conclusions          1


              DETAILS OF FINDINGS

              Access to Y-12 by Non-U.S. Citizens   2

              Lessons Learned                       3


              RECOMMENDATIONS                       3


              MANAGEMENT COMMENTS                   3


              INSPECTOR COMMENTS                    4


              APPENDICES

              A. Scope and Methodology              5

              B. Management Comments                6
Overview

INTRODUCTION       The Department of Energy’s (DOE) Y-12 National Security
AND OBJECTIVE      Complex (Y-12) in Oak Ridge, Tennessee, is a component of the
                   National Nuclear Security Administration and is an integral part of
                   the nuclear weapons complex. The mission of Y-12 includes the
                   manufacture of nuclear weapons components; weapons
                   dismantlement, storage, and evaluation; and, the warehousing of
                   enriched uranium material.

                   The DOE Office of Inspector General received an allegation that in
                   2004, non-U.S. citizens were improperly allowed access to a Y-12
                   leased facility. The objective of this inspection was to evaluate the
                   factual basis of the allegation and, if confirmed, to determine
                   whether control procedures at Y-12 should have prevented such
                   access.

OBSERVATIONS AND   We concluded that the access control procedures at the time of our
CONCLUSIONS        inspection did not prevent access to Y-12 facilities by illegal
                   aliens. Specifically, we found that:

                   •   Foreign construction workers, using false documents, gained
                       access to the Y-12 site on multiple occasions.




Page 1                                           Security Access Controls at the
                                                 Y-12 National Security Complex
Details of Findings

ACCESS TO Y-12 BY     We found that foreign construction workers, using false
NON-U.S. CITIZENS     documents, gained access to the Y-12 site on multiple occasions.
                      Specifically, we determined 16 foreign construction workers were
                      illegal aliens. Some of these workers acquired facility access
                      badges and were permitted access to the main Y-12 site, and others
                      were permitted access to an adjacent Y-12 leased facility. Certain
                      information associated with the construction of the Y-12 leased
                      facility, which was planned to store documents up to the Secret-
                      Restricted Data level, was considered Unclassified Controlled
                      Nuclear Information (UCNI) and Official Use Only (OUO).
                      Consequently, these individuals may have had opportunities to
                      inappropriately access this type of information.

Access Control        We determined that control procedures at Y-12 facilities, which
Procedures            should have prevented unauthorized access, were not implemented.
                      For example, a requirement for all employees working at the Y-12
                      leased facility construction site to be U.S. citizens was included in
                      the construction solicitation offer and pre-construction briefs;
                      however, this requirement was erroneously not included in the
                      signed contract. While the deletion of the applicable contract
                      clause was a problem, we were also concerned about the apparent
                      reliance on the subcontractor to self-certify the citizenship status of
                      their employees. Also, we learned that the Office of
                      Counterintelligence was not aware of the presence of foreign
                      construction workers at the Y-12 leased facility until notified by
                      the Office of Inspector General (OIG) during this inspection.
                      Counterintelligence checks had not been performed for these
                      individuals to that point.

Use of Fraudulent     We coordinated with the U.S. Department of Homeland Security’s
Documents             Bureau of Immigration and Customs Enforcement (ICE) on the
                      possible use of fraudulent identification by foreign construction
                      workers to gain access to the Y-12 facilities. ICE officials
                      determined that “green cards” used by 16 foreign construction
                      workers were fraudulent. Legitimate “green cards” are used to
                      prove that a foreign national has a legal right to live and work in
                      the United States. Because the “green cards” were fraudulent, the
                      16 foreign construction workers were considered to be illegal
                      aliens.

Revision of Y-12      We informed the Y-12 Site Office Acting Assistant Manager for
Access Policy         Safeguards and Security of these incidents. Following this
                      notification, operations at the Y-12 leased facility were temporarily
                      shut down and additional measures were implemented by Y-12
                      officials to improve security and control access at the facility. In



Page 2                                                                Details of Findings
                    February 2005, prior to completion of our inspection, Y-12
                    officials issued a revised access policy entitled “Citizenship
                    Verification Requirements for Access to the Y-12 National
                    Security Complex.” The revised policy addressed the concerns we
                    had raised to Y-12 officials during our review. We plan to include
                    a review of the effectiveness of the revised access policy in future
                    work at Y-12 facilities.

OA Access Control   We found that, in January 2004, the DOE Office of Independent
Review              and Oversight Performance Assurance (OA) conducted a review
                    of safeguards and security at the Y-12 site, including a review of
                    access control procedures. However, we determined that the OA
                    review did not address the specific access control issues identified
                    in this report.

LESSONS             The lessons learned during this inspection have possible broader
LEARNED             implications for security at other DOE sites. Therefore, in a
                    separate memorandum to the Under Secretary for Energy, Science
                    and Environment and the Administrator, National Nuclear Security
                    Administration, we are recommending that they determine what
                    Department-wide actions are warranted.

RECOMMENDATIONS     We recommend that the Manager, Y-12 Site Office:

                    1. Ensure that the revised access policy is fully and consistently
                       implemented to prevent inappropriate access to Y-12 facilities.

                    We recommend that the Director, Office of Independent Oversight
                    and Performance Assurance:

                    2. Review the information provided in this report, and take action
                       to ensure that future OA security reviews at Y-12 and other
                       Department facilities include inspection steps specific to the
                       issues discussed in this report.

MANAGEMENT          Management concurred and provided comments on a draft of this
COMMENTS            report. NNSA stated that it would make all of its Site Office
                    Managers aware of the findings at Y-12 to ensure that they take
                    similar steps, if necessary, to improve access controls to sensitive
                    DOE sites.

                    The Office of Security and Safety Performance Assurance (SSA)
                    explained that access controls have been a recognized weakness
                    across the Government, and that much work is being done to



Page 3                                                          Recommendations
                                                            Management Comments
            prevent reoccurrence of the types of issues this report identified.
            For example, SSA noted that the Department’s response to
            Homeland Security Presidential Directive 12, “Policy for a
            Common Identification Standard for Federal Employees and
            Contractors,” as well as new guidance on prosecution of persons
            who falsely represent their identities, would strengthen access
            controls. SSA also stated that the Office of Independent Oversight
            and Performance Assurance would assess the adequacy and
            effectiveness of the corrective actions implemented by Y-12 in
            response to this report.

            Management’s comments are included in their entirety at
            Appendix B.

INSPECTOR   Management’s comments were responsive to our recommendations.
COMMENTS    We note that at the time of the incidents identified in our report,
            NNSA had policies in place to control access at Y-12 and other
            NNSA sites. These policies failed to prevent the deficiencies we
            identified at Y-12. In that regard, the effective implementation of
            not only the corrective actions at Y-12, but the implementation of
            Presidential Directive 12 throughout the DOE complex, takes on
            greater importance.

            NNSA pointed out there was no evidence that foreign nationals
            with fraudulent green cards had access to any UCNI or OUO
            documents. During our physical inspection of the Y-12 leased
            facility, we observed UCNI and OUO documents lying
            unprotected in a construction trailer, which was accessed by the
            foreign construction workers who are the subject of this report.
            Thus, these individuals were afforded opportunities to access
            UCNI, as well as OUO information. We concluded that this
            situation represented a potentially serious access control and
            security problem.




Page 4                                                  Inspector Comments
Appendix A

SCOPE AND     We identified and reviewed applicable DOE regulations and other
METHODOLOGY   key documents applicable to the inspection. We interviewed
              Federal and contractor staff assigned to Department field locations
              in Oak Ridge, Tennessee. We worked with the OIG Office of
              Investigations and the U.S. Department of Homeland Security’s
              Bureau of Immigration and Customs Enforcement.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency. Pursuant to the Government Performance
              and Results Act of 1993 we reviewed performance measures
              related to security and access control.




Page 5                                                Scope and Methodology
Appendix B




Page 6       Management Comments
Page 7   Management Comments
Page 8   Management Comments
Page 9   Management Comments
                                                                    IG Report No. DOE/IG-0691

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
